U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

William C. McGee v. United States of America,
S.Ct. No. 20-5773

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
17, 2020, and placed on the docket on September 24, 2020. The government’s response is due
on October 26, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 30, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5773
MC GEE, WILLIAM C.
USA

DAN GOLDBERG
FEDERAL PUBLIC DEFENDER
FEDERAL PUBLIC DEFENDER
1000 WALNUT SUITE 600
KANSAS CITY, MO 64106
816-471-8282
DAN_GOLDBERG@FD.ORG

